WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-1605

(Justin Terrell Atkins

Timothy Hooper, Warden

 

(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

[e) Tonly represent some respondents, I am filing this wanver on behalf of the following respondent(s):

Please check the appropriate box:

© Jama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filmg System. The system wall prompt you to enter
your appearance first.)

oO 1am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court.
Attn: Clerk's Offigg, 1 First Street, NE, Washington, D.C. 20543).

LAS |

Date: ‘e16/21 |

Signature:

(Type or print) Name [Shae McPhee

© mr O Ms O ws. O Miss
Firm Louisiana Department of Justice -
Address [1885 N. Third Street a
City & State Baton Rouge, LA | ap {roao2
Phone 225-938-0779 Email |mephees@ag.louisiana.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter 1s required.

Christine Marie Calogero
ce: |
